            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
          STATE OF FLORIDA
     FOR THE FISCAL YEAR ENDED
             JUNE 30, 2006

    November 2007   A-77-08-00001




  MANAGEMENT
ADVISORY REPORT
                                  Mission
By conducting independent and objective audits, evaluations and
investigations, we inspire public confidence in the integrity and security of
SSA’s programs and operations and protect them against fraud, waste and
abuse. We provide timely, useful and reliable information and advice to
Administration officials, Congress and the public.

                                 Authority
The Inspector General Act created independent audit and investigative
units, called the Office of Inspector General (OIG). The mission of the OIG,
as spelled out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and
    proposed legislation and regulations relating to agency programs
    and operations.
   Keep the agency head and the Congress fully and currently informed
    of problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the
    reviews.

                                   Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud,
waste and abuse. We commit to integrity and excellence by supporting an
environment that provides a valuable public service while encouraging
employee development and retention and fostering diversity and
innovation.
                                     SOCIAL SECURITY
MEMORANDUM


Date:   November 1, 2007                                               Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From:   Inspector General

Subject: Management Advisory Report: Single Audit of the State of Florida for the Fiscal Year
        Ended June 30, 2006 (A-77-08-00001)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Florida for the Fiscal Year ended June 30, 2006. Our objective was
        to report internal control weaknesses, noncompliance issues, and unallowable costs
        identified in the single audit to SSA for resolution action.

        The Florida Auditor General performed the audit. The Department of Health and
        Human Services (HHS) desk review concluded that the audit met Federal requirements.
        In reporting the results of the single audit, we relied entirely on the internal control and
        compliance work performed by the Florida Auditor General and the reviews performed
        by HHS. We conducted our review in accordance with the Quality Standards for
        Inspections issued by the President’s Council on Integrity and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Florida Disability Determination Services (DDS) performs disability determinations
        under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
        reimbursed for 100 percent of allowable costs. The Florida Department of Health
        (FDOH) is the Florida DDS’ parent agency.
Page 2 – Candace Skurnik

The single audit reported that FDOH charged payments totaling $47,065 for unused
leave as direct costs to SSA instead of as indirect costs as required by Federal
regulations (Attachment A, page 1). The corrective action plan indicated that FDOH is
now working to establish specific procedures and accounting codes to properly identify
and administer leave payout (Attachment A, page 2).

We recommend SSA:

1. Ensures FDOH developed procedures to properly charge payments for unused
   leave as indirect costs.

2. Quantify the amount SSA was overcharged for unused leave and seek
   reimbursement.

The single audit also disclosed that FDOH did not fully implement procedures to
allocate employee salaries charged to multiple programs or cost objectives in
accordance with Federal regulations (Attachment B, pages 1 and 2). Although this
finding was not specifically identified to SSA, it may have an impact on DDS operations.
I am bringing this matter to your attention as it represents a potentially serious service
delivery and financial control problem for the Agency.

Please send copies of the final Audit Clearance Document to Ken Bennett and
Rona Lawson. If you have questions contact Ken Bennett at (816) 936-5593.




                                                Patrick P. O’Carroll, Jr.

Attachments
Attachment A
  Page 1 of 2
Attachment A
  Page 2 of 2
Attachment B
  Page 1 of 2
Attachment B
  Page 2 of 2
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
